                     OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                           Audit of Corporation for National and
                           Community Service Grants Awarded to
                           PennSERVE: The Governor's Office of
                                      Citizen Service

                                  Audit Report Number 03-07
                                        March 19,2003



                                     Financial Schedules
                                            and
                               Independent Auditor's Reports
                                       For the Period
                            January 1,1998, to December 31,2001
                                (Dates Vary by Grant Award)


                                        Prepared by
                             Leonard G. Birnbaum and Company
                                Certified Public Accountants
                                   6285 Franconia Road
                                 Alexandria, Virginia 22310




This report was issued to Corporation management on August 4, 2003. Under the laws and
regulations governing audit follow up, the Corporation must make management decisions on the
report's findings and recommendations no later than February 4,2004, and complete its corrective
actions by August 4,2004. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                        Audit of Corporation for National and Community Service
                                          Grants Awarded To
                         PennSERVE: The Governor's Office of Citizen Service


                                                           Table of Contents



Report Summary and Highlights:

          Results in Brief ..............................................................................................

          Grant Programs Audited ................................................................................

          Costs Questioned ...........................................................................................

          Compliance ....................................................................................................

          Internal Controls ............................................................................................

          Purpose and Scope of Audit ...........................................................................

          Background ....................................................................................................

          Report Release ...............................................................................................

Independent Auditor's Report ....................................................................................

Financial Schedules:

          Consolidated Schedule of Award Costs .........................................................                    9

          Exhibit A .Schedule of Award Costs:
                     AmeriCorps ................................................................................            11

          Exhibit B . Schedule of Award Costs:
                     Learn & Serve .............................................................................            13

          Exhibit C . Schedule of Award Costs:
                     Education Awards ......................................................................                14

          Exhibit D .Schedule of Award Costs:
                     Disability Placement ...................................................................               15

          Exhibit E .Schedule of Award Costs:
                     Program Development and Training (PDAT) ............................                                   16
       Exhibit F - Schedule
                       . . of Award Costs:
                   Administrative.. ............................................................................


Compliance and Internal Controls:

       Independent Auditor's Report on Compliance and Internal Controls
              Over Financial Reporting ...................................................................

                 Compliance ........................................................................................

                 Internal Controls ................................................................................

       Follow-up on Pre-Audit Survey Findings .....................................................


Responses to Report

       PennSERVE: The Governor's Office of Citizen Service.. ......................Appendix A

       Corporation for National and Community Service ........................................ Appendix B
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 03-07

                Audit of Corporation for National and Community Service Grants
                                          Awarded to
                    PennSERVE: The Governor's Office of Citizen Service

Introduction

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full- and part-time national and
community service programs. Currently, under the Act's requirements, the Corporation awards
approximately three-fourths of its AmeriCorps*State/National funds to State commissions. The
State commissions in turn fund and are responsible for the oversight of subgrantees who execute
the programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.

The Office of Inspector General (OIG) retained Leonard G. Birnbaum and Company to audit
Corporation grants awarded to PennSERVE: The Governor's Office of Citizen Service. These
grants covered costs related to AmeriCorps, Program Development and Training, Disability,
Administrative, Learn & Serve, and Education Awards from January 1, 1998, through December
3 1, 2001. The audit's objectives were to determine whether: (I) financial reports prepared by
PennSERVE presented fairly the financial results of the awards; (2) the internal controls were
adequate to safeguard Federal funds; (3) PennSERVE and its subrecipients had adequate
procedures and controls to ensure compliance with Federal laws, applicable regulations and
award conditions, and that member services were appropriate to the programs; (4) the award
costs reported to the Corporation were documented and allowable in accordance with the award
terms and conditions; and (5) PennSERVE had established adequate oversight and informed
subrecipients of the Corporation's Government Performance Results Act goals.

PennSERVE had total claimed costs of $14,963,565, of which the auditors questioned $4,666.
The questioned amount included a coding error of $4,563 and $103 in payments to consultants
that were in excess of the daily maximum. The auditors concluded that the Consolidated
Schedule of Award Costs presents fairly the costs claimed by PennSERVE, except for the
questioned costs identified in the report.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors conclusions. Our review of the auditor's work papers disclosed no instances where
Leonard G. Birnbaum and Company did not comply, in all material respects, with generally
accepted government auditing standards.

The Office of Inspector General provided PennSERVE and the Corporation a draft of this report
for their review and comment. Their responses are included in their entirety as Appendices A
and B, respectively.
REPORT SUMMARY AND HIGHLIGHTS
                         LEONARD G . BIRNBAUM                        AND     COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA. VA 22310-2510
                                                           -
                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER
                                                                                                      WASHINGTON. D.C.
LEONARD G. BIRNBAUM
                                                                                                    SUMMIT. NEW JERSEY
DAVID SAKOFS
                                                                                               REDWOOD CITY. CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




     J. Russell George
     Inspector General
     Corporation for National and Community Service

     This report is issued under an engagement to audit the costs claimed by PennSERVE: The
     Governor's Office of Citizen Service (PennSERVE) and its subrecipients from January 1, 1998,
     through December 31, 2001 (dates vary by grant award), under the grants awarded by the
     Corporation for National and Community Service (the Corporation). This report focuses on the audit
     of claimed costs, instances of noncompliance with Federal laws, applicable regulations or award
     conditions, and internal control weaknesses disclosed during the audit of PennSERVE and its
     subrecipients.

                                                 Results in Brief

     As a result of our audit of these awards, we are questioning net costs totaling $4,666, or less than one
     percent of the total $14,963,565 of costs claimed by PennSERVE for the audit period. Questioned
     costs are those for which there is documentation that the recorded costs were expended in violation
     of the law, regulations or specific conditions of the award, or those costs which require additional
     support by the grantee or require interpretation of allowability by the Corporation. Questioned costs
     include a $4,563 erroneous charge to the Administrative grant, and $103 overpayment to consultants
     charged to the Program Development and Training (PDAT) grant. We also noted $146,813 of
     salaries and related costs charged to the PDAT grant, which should have been charged to the
     Administrative grants. Details related to questioned costs appear in the Independent Auditor's
     Report.

      PennSERVE has taken effective action on prior audit recommendations in those areas where
      improvements in policies and operating practices were suggested. We have determined that
      PennSERVE has recently developed and effectively implemented a variety of new policies and
      procedures to remedy previously indicated areas of weaknesses. Improvements have been made in
      ArneriCorps program monitoring, oversight and records maintenance. PennSERVE regards the
      development and implementation of new policies and procedures as an ongoing process. The vigor
      and depth of the PennSERVE processes are indicated by the relatively low amount of questioned
      costs.




                           MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                   Grant Programs Audited

Our audit of PennSERVE covered financial transaction, compliance, and internal controls testing of
the following program awards funded by the Corporation:

   Program           Award Number               Award Period               Audit Period
AmeriCorps           94ASCPA039                8/1/94 to 6/30/02         7/1/98 to 12/17/00
AmeriCorps           00ASFPA039                9/1/00 to 12131/03        9/1/00 to 813 1101
AmeriCorps           00ASCPA039                7/1/00 to 813 1/03        8/1/00 to 713 1/01
AmeriCorps           98ARCPA042                9/1/98 to 12131/00        9/1/98 to 12/31/01
Learn & Serve        94LCSPA0 12               7/1/94 to 12131/00        7/1/98 to 12131/00
Learn & Serve        00LCSPA038                9/1/00 to 813 1/03        9/1/00 to 813 1101
Education Awards     97EDSPA022                711197 to 713 1100        7/1/98 to 12131/00
Education Awards     00EDSPA022                8/l 100 to 812 1/O3       8/1/00 to 813 1/01
Disability Placement 0 1DSCPA037               1/1/01 to 12/31/03        1/1/01 to 12/31/01
PDAT                 95PDSPA038                11/1/95 to 12/31/01       1/1/98 to 12/31/01
Administrative       94SCSPA038                1/28/94 to 12131100       1/1/98 to 12/31/00
Administratve 0 1SCSPA038                      1/1/01 to 12/31/03        1/1/01 to 12/31/01

Our audit of the costs claimed by PennSERVE under these awards disclosed the following:

                                                    Amount

Claimed Costs                                   $14,963.565

Questioned Costs                                $      4,666

                                        Costs Ouestioned

The following summarizes the costs questioned on these awards:

Program Development andTraining
      Reclassification of Salary and Related Costs
      Consultant Overpayments
      Total Audit Adjustments - PDAT Grant

Administrative Grants
     Reclassification of Salary and Related Costs
     State Services Erroneously Charged to Administrative Grant
     Total Audit Adjustments - Administrative Grants

Total Net Costs Questioned
 We used judgmental and random sampling methods to test the costs claimed. Therefore, questioned
 costs in this report may not represent total costs that may have been questioned had all expenditures
 been tested. In addition, we have made no attempt to project such costs to the total expenditures
 incurred, based on the relationship of costs tested to total costs. For a complete discussion of these
 questioned costs, please refer to the Independent Auditor's Report.

                                             Compliance

 Our audit disclosed the following instance of noncompliance with Federal laws, applicable
 regulations and award conditions:

              Travel cost records are being maintained by the Pennsylvania Department of the Auditor
              General for the current and seven previous State fiscal years. This policy does not
              comply with the Corporation's record retention requirements.

                                          Internal Controls

Our audit disclosed the following weakness in PennSERVE's internal controls:

              Accounting for Employee Time Charging: An employee's salary was being recorded to
              the PDAT Grant even though the time sheet reflected that the Administrative Grants
              should have been charged.

                                    Purpose and Scope of Audit

 Our audit covered the costs claimed during the period January 1, 1998, to December 3 1,2001.

 The objectives of our audit were to determine whether:

         1.      Financial reports prepared by PennSERVE presented fairly the financial results of the
                 awards;

         2.      The internal controls were adequate to safeguard Federal funds;

         3.      PennSERVE and its subrecipients had adequate procedures and controls to ensure
                 compliance with Federal laws, applicable regulations and award conditions, and that
                 member services were appropriate to the programs;

         4.      The award costs reported to the Corporation were documented and allowable in
                 accordance with the award terms and conditions; and

         5.      PennSERVE had established adequate oversight and informed subrecipients of the
                 Corporation's Government Performance Results Act goals.
We performed the audit in accordance with auditing standards generally accepted in the United
States of America and the Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed against the awards, as presented in the Consolidated
Schedule of Award Costs and the grant-specific Schedules of Award Costs (Exhibits A through F)
are free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in these schedules. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the overall
financial schedule presentation. Our audit included reviews of Single Audit Reports on financial
statements of the Commonwealth of Pennsylvania issued jointly by the Department of the Auditor
General (Pennsylvania) and the accounting firm of Ernst & Young, LLP for the years covered by this
engagement. We also reviewed audit reports prepared by the independent public accountants for the
State commission and its subrecipients in accordance with the requirements of OMB Circular A- 133,
Audits of States, Local Governments and Non-Profit Organizations. Reviews were also made of the
reports and working papers of selected audit engagements performed by the internal audit office of
the Labor, Education and Community Services (LECS) Comptroller's Office, a component of the
Commonwealth of Pennsylvania, Office of the Budget. Our audit also followed up on the findings
and recommendations in the Pre-Audit Survey Report of PennSERVE, dated November 18,1999,
(CNCS Office of Inspector General Report 00- 14). We believe our audit provides a reasonable basis
for our opinion.

The contents of this report were disclosed to and discussed with PennSERVE at an exit conference
on May 29, 2003. In addition, we provided a draft of this report to PennSERVE and to the
Corporation for comment on June 14,2003. PennSERVE's response to the report, which appears as
Appendix A hereto, concurs in the findings, recommendations and costs questioned in the report and
indicates that appropriate remedial action has been taken.

                                           Background

The Corporation, pursuant to the authority of the National and Community Service Trust Act of
1993,42 U.S.C. $9 12501-12681, as amended, awards grants and cooperative agreements to State
commissions and other entities to assist in the creation of full and part-time national and community
service programs.

PennSERVE: The Governor's Office of Citizen Service (PennSERVE) has received funding, as of
September 30,2001, from the Corporation for various programs in the amount of $4O,O55,03 1. For
the period under audit, Program Years 1998-1999 to 2000-2001, expenditure drawdowns, as
reconciled to the Financial Status Reports (FSRs), amounted to $14,963,565. The majority of this
amount has been subgranted to numerous entities in order to carry out the programs. A brief
synopsis of the programs follows:
                                                       Costs Claimed by
                            Award                        PennSERVE
      Program               Number      Award Amount      1998 -2001

AmeriCorps
Competitive & Formula   94 ASC PA039
Competitive             00 ASC PA039
Formula                 00 ASF PA039
America Reads           98 ARC PA042

Total - AmeriCorps

Learn & Serve
                        94 LCS PA0 12
                        00 LCS PA038

Total - Learn & Serve

Education Awards
                        97 EDS PA022
                        00 EDS PA022

Total - Education
Awards

Disability Funds

Disability Placement    01 DSC PA037

Program
Development &
Training                95 PDS PA038
   Administrative
   Administrative (OLD)       94 SCS PA038
   Administrative             94 SCS PA038
   (Disability)
   Administrative             94 SCS PA038
   (Unified State Plan)
   Administrative (NEW)       01 SCS PA038
   Total -
   Administrative

   Total Funds


                                        Report Release

This report is intended for the information and use of the Office of Inspector General, management
of the Corporation for National and Community Service, PennSERVE: The Governor's Office of
Citizen Service and its subrecipients, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.
                         LEONARD G . BIRNBAUM                         AND     COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                     WASHINGTON OFFICE
                                                    6285 FRANCONIA ROAD
                                                  ALEXANDRIA, VA 22310-2510


                                                        (703) 922-7622
                                                      FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                            WASHINGTON. D.C.
LEONARD G BIRNBAUM                                                                                       SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                         REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M . CLARKE




       J. Russell George
       Inspector General
       Corporation for National and Community Service

                                    INDEPENDENT AUDITOR'S REPORT

       We have audited the costs incurred by PennSERVE: The Governor's Office of Citizen Service
       (PennSERVE or Commission) for the award numbers listed below. These costs, as presented in the
       Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs (Exhibits
       A through F), are the responsibility of PennSERVE's management. Our responsibility is to express
       an opinion on the consolidated Schedule of Award Costs and Exhibits A through F based on our
       audit.

          Program              Award Number                   Award Period                     Audit Period
       AmeriCorps              94ASCPA039                    8/1/94 to 6/30/02              7/1/98 to 12/17/00
       AmerjCorps              00ASFPA039                    9/1/00 to 12131/03             9/1/00 to 8131/01
       AmeriCorps              00ASCPA039                    7/1/00 to 8131/03              811/00 to 713 1101
       AmeriCorps              98ARCPA042                    9/1/98 to 12/31/00             9/1/98 to 12131/01
       Learn & Serve           94LCSPA0 12                   7/1/94 to 12131/00             7/1/98 to 12/31/00
       Learn & Serve           00LCSPA038                    911/00 to 8131/03              9/1/00 to 8/31/01
       Education Awards        97EDSPA022                    7/1/97 to 713 1/00             7/1/98 to 12/31/00
       Education Awards        00EDSPA022                    8/1/00 to 8/21/03              8/ 1/00 to 8131101
       Disability Placement    0 1DSCPA037                   1/1/01 to 12/31/03             1/1/01 to 12/31/01
       PDAT                    95PDSPA038                    11/1/95 to 12/31/01            1/1/98 to 12/31/01
       Administrative          94SCSPA038                    1/28/94 to 12131/00            1/1/98 to 12/31/00
       Administrative          01SCSPA038                    1/1/01 to 12/31/03             1/1/01 to 12/31/01

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and the Government Auditing Standards, issued by the Comptroller General of
        the United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement. An audit includes
        examining, on a test basis, evidence supporting the amounts and disclosures in the financial




                             MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
schedules. An audit also includes assessing the accounting principles used and significant
management estimates, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

In our opinion, except for the $4,666 in questioned costs, the Consolidated Schedule of Award Costs,
and the grant-specific Schedules of Award Costs (Exhibits A through F) referred to above, present
fairly, in all material respects, the costs claimed for the period January 1, 1998, to December 31,
2001, in conformity with generally accepted accounting standards in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report, dated March
19,2003, on Compliance and on Internal Controls over Financial Reporting.

This report is intended for the information and use of the Corporation for National and Community
Service's Office of Inspector General, management of the Corporation for National and Community
Service, PennSERVE: The Governor's Office of Citizen Service and its sub-recipients, and the U.S.
Congress. However, this report is a matter of public record and its distribution is not limited.


                                             Leonard G. Birnbaum and Company,


Alexandria, Virginia
March 19, 2003
                      PennSERVE: The Governor's Office of Citizen Service
                            Consolidated Schedule of Award Costs

Corporation for National and Community Service Awards:

                                                                       Costs
                                                       Approved       Claimed by
                                                         Budget      PennSERVE          Questioned
Award Number                      Program           (1994 To 2001)   (1 998 to 200 1)     Costs        Reference

94ASCPA039                   AmeriCorps (c&F)       $21,999,885       $9,802,069
00ASCPA039                   AmeriCorps ( c )         7,667,56 1       2,432,665
00ASFPA039                   AmeriCorps (F)           5,509,054          842,143
98ARCPA042                   America Reads              41 1,551         377,102

Total AmeriCorps                                     35.588.05 1      13,453,979                   - Exhibit A

94LCSPA0 12                  Learn & Serve               9 12,500         2 10,520
00LCSPA038                   Learn & Serve               200,000           21,357

Total Learn & Serve                                    1,112,500          23 1,877                 - Exhibit B

97EDSPA022                   Education Awards             97,33 1           54,075
00EDSPA022                   Education Awards             33,050

Total Education Awards                                   130,381                                   - Exhibit C

0 1DSCPA037                  Disability Placemt.          99,100                                   -   Exhibit D

95PDSPA03 8                  PDAT                        722,522                             146,916 Exhibit E

94SCSPA03 8                  Administrative            2,086,409                                   -
94SCSPA03 8                  Administrative                                                        -
                             (Disability)
94SCSPA03 8                  Administrative                 5,483
                             (Unified State Plan)
0 1SCSPA038                  Administrative              3 16,068                        (142,250)

Total Administrative                                   2,402,477                         (142,250) Exhibit F

Grand Totals - All Awards                           $40.055,03 1                         $     4.666
                    PennSERVE: The Governor's Office of Citizen Service
                       Notes to Consolidated Schedule of Award Costs

Reporting Entity

The accompanying consolidated Schedule of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Administrative, and Program Development and Training grants
awarded to PennSERVE: The Governor's Office of Citizen Service (PennSERVE) by the
Corporation for National and Community Service (the Corporation) for the period from January 1,
1998, to December 3 1,2001 (periods vary by individual grant).

PennSERVE awards AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps program and report financial and programmatic results to PennSERVE.

Summary of Significant Accounting Policies

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and PennSERVE. The information presented in the Schedule
has been prepared from the reports submitted by PennSERVE to the Corporation. The basis of
accounting used in preparation of these reports differs slightly from accounting principles generally
accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in the
Schedule of Award Costs include the cost of equipment purchased during the period rather than a
provision for depreciation. The acquired equipment is owned by PennSERVE while used in the
program for which it was purchased or in other future authorized programs. However, the
Corporation has reversionary interest in the equipment. Its disposition, as well as the ownership of
any proceeds, is therefore subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.

Questioned Costs

Questioned costs are those for which there is documentation that the recorded costs were expended
in violation of the law, regulations or specific conditions of the awards, or those costs which require
additional support by the grantee or which require interpretation of allowability by the Corporation.
                                                                                    Exhibit A
                                                                                   Page 1 of 2
              PennSERVE: The Governor's Office of Citizen Service
                            Schedule of Award Costs
                Corporation for National and Community Service
     Award Numbers 94ASCPA039,00ASCPA039,00ASFPA039and 98ARCPA042
                                 (AmeriCorps)
                       July 1,1998, to December 31,2001
                                                         Questioned
                               Claimed      Questioned    Education
Grant                           Costs          Costs        Awards    Reference
94ASCPA039 AmeriCorps (C&F) $ 9,802,069      $            $       - -   Note 1, 2
00ASCPA039 AmeriCorps (C)      2,432,665                          --    Note l , 2
00ASFPA039 AmeriCorps (F)        842,143                           -    Note 1 , 2
98ARCPA042 America Reads         377,102                           -
Total AmeriCorps                    $13,453,979       $           -   $        -    Note 2

Notes

   1. There are a significant number of subgrantees under the funded AmeriCorps Grants'
      programs. We identified the following as having the major cumulative expenditures (over
      $500,000) through our three-year audit period. Our examination of the costs incurred by
      these subrecipients did not yield any questioned costs.

                       AmeriCorps (Cumulative Threshold of $500,000)


                                                              Cumulative
                                                             Expenditures
                         Subgran tees                       Program Years
                                                          1998-99 TO 2000-01
            Appalachia Intermediate Unit 8
            Butler Memorial Hos~ital
            City of Harrisburg
            Citv Year Inc.. Philadel~hia
        I   County of Allegheny. Keys Service Corns
            Keystone School District - SMILES
            Union Snyder Office of Human Resources
        I   Woodrow Wilson Foundation
        I   Total - Subgrantees Over $500,000
                                                                                 Exhibit A
                                                                                 Page 2 of 2

2.   The amount shown above as "Claimed Costs" represents the total expenditure drawdowns by
     PennSERVE for the Program Years 1998 through the audit cutoff date of September 30,200 1,
     per reconciliations with Federal Cash Transaction Reports, Financial Status Reports,
     PennSERVE cost ledgers and Corporation records.
                                                                                       Exhibit B

                   PennSERVE: The Governor's Office of Citizen Service
                                Schedule of Award Costs
                     Corporation for National and Community Service
                     Award Numbers 94LCSPA012 and 00LCSPA038
                                     (Learn & Serve)
                             July 1,1998, to August 31,2001


                                                      Claimed         Questioned
Grant                                                  Costs            Costs       Reference

94LCSPAO 12 Learn & Serve                                             $        -     Note 1, 2

00LCSPA038 Learn & Serve                                                       -     Note 1 , 2

Drawdowns as of 813 1/01                                              $        -     Note 2


Notes

1.      Our examination of these costs did not yield any questionecd costs.

2.      The amount shown above as "Claimed Costs" represents the total expenditure drawdowns by
        PennSERVE for the Program Years 1998 through the audit cutoff date of September 30,
        2001, per reconciliations with Federal Cash Transaction Reports, Financial Status Reports,
        PennSERVE cost ledgers and Corporation records.
                                                                                    Exhibit C

                  PennSERVE: The Governor's Office of Citizen Service
                               Schedule of Award Costs
                    Corporation for National and Community Service
                   Award Numbers 97PEDSPA022 AND 00EDSPA022
                                  (Education Awards)
                          July 1,1998, to September 30,2001


                                                    Claimed          Questioned
Grant                                                Costs            Costs         Reference

97EDSPA022 Education Award                                           $         -      Note 1

00EDSPA022 Education Award

Drawdowns as of 813 110I                                             $         -      Note 2


Notes

   1. Our examination of these costs did not yield any questioned costs.

   2. The amount shown above as "Claimed Costs" represents the total expenditure drawdowns by
      PennSERVE for the Program Years 1998 through the audit cutoff date of September 30,
      200 1, per reconciliation's with Federal Cash Transaction Reports, Financial Status Reports,
      PennSERVE cost ledgers and Corporation records. Grant Number 00EDSPA022 was
      awarded within the audit period covered by this engagement. However, there were no
      claimed costs prior to the audit cut-off date.
                                                                                Exhibit D

                  PennSERVE: The Governor's Office of Citizen Service
                               Schedule of Award Costs
                    Corporation for National and Community Service
                             Award Number 01DSCPA037
                                 (Disability Placement)
                        January 1,2001, to December 31,2001


                                                   Claimed         Questioned
                                                    Costs           Costs       Reference

0 1DSCPA037 Disability Placement Award                  $877         $     -    Notes 1 , 2


Notes

   1. Our examination of these costs did not yield any questioned costs.

   2. The amount shown above as "Claimed Costs" represents the total expenditure drawdowns by
      PennSERVE for Program Years 1998 through the audit cut-off date of September 30,2001,
      per reconciliations with Federal Cash Transaction Reports, Financial Status Reports,
      PennSERVE cost ledgers and Corporation records.
                                                                                      Exhibit E


                   PennSERVE: The Governor's Office of Citizen Service
                                Schedule of Award Costs
                     Corporation for National and Community Service
                              Award Number 95PDSPA038
                          (Program Development and Training)
                         January 1,1998, to December 31,2001


                                                       Claimed      Questioned
Grant                                                   Costs          Costs          Reference

95PDSPA038 Training & Technical Assistance,
Program Development and Training                       $5 12.238       $146,916       Notes 1 , 2

Notes

   1. Questioned Claimed Costs include the following items:

        Reclassification of Salary and Related Costs                   $146,813 (a)
        Consultant Overpayments                                             103 (b)

        Total Questioned Costs

        (a) During our audit of expenditures on the PDAT grant, we noted that one PennSERVE
            employee's salary was being charged to the PDAT grant, while his work was identified,
            budgeted and assigned by timesheets to the Administrative Grant. Questioned costs
            represent the salary expenditures for this one PennSERVE individual performing
            functions under the Administrative grant over the course of the audit period, which were
            misclassified and erroneously charged to the PDAT grant. A corresponding
            reclassification should be made to the Administrative grant and such adjustment is
            reflected in Exhibit F of this report.

        (b) Two consultants were paid in excess of the maximum $443 per day limitation. This
            adjustment represents the excess amount paid and charged to the grant.

   2. The amount shown above as "Claimed Costs" represents the total expenditure drawdowns by
      PennSERVE for the Program Years 1998 through the audit cut-off date of September 30,
      200 1, per reconciliations with Federal Cash Transaction Reports, Financial Status Reports,
      PennSERVE cost ledgers and Corporation records.
                                                                                      Exhibit F
                  PennSERVE: The Governor's Office of Citizen Sewice
                               Schedule of Award Costs
                    Corporation for National and Community Service
                     Award Numbers 94SCSPA038 and 01SCSPA038
                                    (Administrative)
                         January 1,1998, to December 31,2001

                                                Claimed           Questioned
Grant                                            Costs              Costs             Reference

94SCSPA03 8      Administrative (Old)           $472,020                4,563           Note 1

94SCSPA038       Administrative (Disability)      46,482                    -



94SCSPA03 8      (Unified State Plan)               5,483                   -




01 SCSPA038      Administrative (NEW)            186,534            (146,813)           Note 2

Total Administrative                                                                    Note 3


Notes

   1. The questioned amount represents amounts billed by the Pennsylvania Conservation Corps
      for work performed for the Pennsylvania Department of Transportation that was incorrectly
      charged to the PennSERVE Administrative grant.

   2. The adjustment represents the reclassification of PennSERVE salary costs for one individual
      over the course of the audit period, from the PDAT grant to the Administrative grant, as
      described in Exhibit E. While corrective action has been taken to have this individual's
      future salary payments charged to the Administrative grant, an adjusting entry will have to be
      prepared on the books of the Commonwealth of Pennsylvania to move the salary from
      "PDAT" to "Administrative" to correct past accounting records.

   3. The amount shown above as "Claimed Costs" represents the total expenditure drawdowns by
      PennSERVE for the Program Years 1998 through the audit cut-off date of September 30,
      2001, per reconciliations with Federal Cash Transaction Reports, Financial Status Reports,
      PennSERVE cost ledgers and Corporation records.
                        LEONARD G . BIRNBAUM                         AND     COMPANY, LLP
                                          CERTIFIED P U B L I C ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510
                                                           -

                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                           WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                     SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                        REDWOOD CITY. CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE



        J. Russell George
        Inspector General
        Corporation for National and Community Service

             INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                         CONTROLS OVER FINANCIAL REPORTING

        We have audited the Schedules of Award Costs, as presented in Exhibits A through F, that
        summarize the claimed costs of PennSERVE under the Corporation awards listed below, and have
        issued our report thereon dated March 19,2003.

           Program             Award Number                  Award Period                    Audit Period
        AmeriCorps             94ASCPA039                   8/1/94 to 6/30/02              7/1/98 to 12/17/00
        AmeriCorps             00ASFPA039                   9/1/00 to 12/31/03             9/1/00 to 8/31/01
        AmeriCorps             00ASCPA039                   7/1/00 to 8131/03              8/1/00 to 7/31/01
        AmeriCorps             98ARCPA042                   9/1/98 to 12/31/00             9/1/98 to 12/31/01
        Learn & Serve          94LCSPA012                   7/1/94 to 12131/00             7/1/98 to 12/31/00
        Learn & Serve          00LCSPA038                   9/1/00 to 8131/03              9/1/00 to 8/31/01
        Education Awards       97EDSPA022                   7/1/97 to 713 1/00             7/1/98 to 12/31/00
        Education Awards       00EDSPA022                   8/1/00 to 8/21/03              8/1/00 to 8131/01
        Disability Placement   OlDSCPA037                   1/1/01 to 12/31/03             1/1/01 to 12/31/01
        PDAT                   95PDSPA038                   11/1/95 to 12/31/01            1/1/98 to 12/31/01
        Administrative         94SCSPA038                   1/28/94 to 12131/00            1/1/98 to 12/31/00
        Administrative         01SCSPA038                   1/1/01 to 12/31/03             1/1/01 to 12/31/01

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and the Government Auditing Standards, issued by the Comptroller General of
        the United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement.

        Compliance

        Compliance with laws, regulations, and the provisions of the awards is the responsibility of
        PennSERVE's management. As part of obtaining reasonable assurance about whether the financial
        schedules are free of material misstatement, we performed tests of compliance with certain
                                                     18


                            MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
provisions of laws, regulations, and the terms and conditions of the awards. However, our objective
was not to provide an opinion on overall compliance with such provisions.

Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
contained in statutes, regulations, and the award provisions.

Compliance Findings

The results of our tests of compliance disclosed the following instances of noncompliance:

1. The Pennsylvania Department of the Auditor General, which is the repository of original
Commonwealth travel documents, is not retaining travel records in accordance with the
Corporation's Grant Provision Number 26, Retention of Records, which requires that records
supporting claimed costs be retained for three years after submission of the final Financial Status
Report. This grant provision implements the record retention requirements found in 45 CFR 5
2541.420, the Corporation's regulation on grant administration. The current policy of the Auditor
General is to retain such records for the current and seven preceding fiscal years.

This condition appears to be caused by the fact that the records retention policies of the Auditor
General do not consider situations where grants may still be active or administratively "open," and
subject to audits of supporting documentation or other record retention requirements.

This condition may result in a violation of the grant's terms and conditions and might result in, or
fail to disclose on a timely basis, potential fimding misapplications. While there are no costs
questioned, we found that problems can occur because both the grantor and grantee lack original
supporting source documentation for claimed costs on grants that have not been closed out.

Recommendation

We recommend that PennSERVE communicate and coordinate with the Auditor General to establish
policies and procedures that will ensure that records are retained as required by the terms and
conditions of the Corporation's grants.

2. The accounting system used to record PennSERVE's staff salaries is not properly recording an
employee's time. The employee, the coordinator of the Web Based Reporting System, is correctly
completing his timesheet to charge the Administrative grant, but the accounting system is ignoring
this information and applying the individual's salary to the PDAT grant. Corporation provisions
require a financial management system that "must be capable of distinguishing expenditures
attributable to this grant from expenditures not attributable to this grant."

The cause of this condition appears to be an initial miscoding of this individual at the time he was
hired. The personnel/payroll office may have incorrectly assumed that the new hire was replacing a
PennSERVE employee who had recently resigned and who worked on the PDAT grant. The total
                                                 19
amount of salary cost mischarged to the Administrative grant from the time the employee was hired
until December 3 1,2001, is $l46,8 13.

The employee timesheet is the key source document supporting grant labor costs and is certified as
correct by the employee and approved by the supervisor. Therefore, the time sheet should be the
controlling document regarding labor cost charges to the Corporation's grant.

Recommendation

PennSERVE has notified the Accounting Department to take corrective action on this issue, which
should correct the condition for the future. To correct the past accounting entry, an adjusting entry
should be prepared on the books of the Commonwealth of Pennsylvania to reclassify salary from
"PDAT" to "Administrative." The precise distribution of the $l46,8 13 between the "OLD" and
" N E W Administrative grants has to be determined, and the "OLD" Administrative grant has been
administratively closed on the Commonwealth's books. The Corporation and PennSERVE will have
to agree on an equitable resolution of this adjustment. It should be noted that the "OLD"
Administrative grant had sufficient remaining funds to cover this adjustment. For the purposes of
this audit, we have assigned the entire amount of this adjustment to the " N E W Administrative grant.

We also recommend that a coordinated effort by PennSERVE and the LECS Personnel Office be
made to review existing payroll procedures and preclude this condition from occurring in the future.

Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs, as presented in Exhibits A through F for the
period of July 1, 1998, to December 3 1,2001, we considered PennServe's internal controls in order
to determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide assurance on the internal controls over financial reporting.

PennSERVE's management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs on internal control policies and procedures. The objective of
internal controls is to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition. Internal controls also provide
management with reasonable, but not absolute, assurance that transactions are executed in
accordance with management's authorization and recorded properly to permit the preparation of the
financial schedules in accordance with generally accepted accounting principles of the United States
of America. Because of inherent limitations in any internal controls, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the internal controls to
future periods is subject to the risk that procedures may become inadequate because of changes in
conditions, or that the effectiveness of the design and operation of policies and procedures may
deteriorate.
Our consideration of internal controls would not necessarily disclose all matters of internal control
over financial reporting that might be reportable conditions. Under standards established by the
American Institute of Certified Public Accountants, reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal controls
that, in our judgment, could adversely affect the entity's ability to record, process, summarize and
report financial data consistent with the assertions of management in the financial schedules.
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce, to a relatively low level, the risk that errors or
irregularities in amounts, which would be material in relation to the financial schedules being
audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.

Internal Control Findings

Finding No. 2, set forth in the Compliance section of the report regarding incorrect time charging, is
also considered a finding on internal controls.

Additionally, we noted the following matters which, while not considered to be "Reportable
Conditions, " we believe would nevertheless provide additional internal controls and strengthen
PennSERVE processes.

1.    In addition to our verification of updated procedures, we reviewed additional information
concerning the current status of subgrantee monitoring that was available from the Corporation's
State Administrative Standards review, performed in April 2001. This review concluded that
PennSERVE is meeting all standards for the section entitled "Conducts Proper Grant Process."

One of the checklist items covered in that study was the PennSERVE Staffs review of applicants9
proposals and budgets. While there was no adverse finding in this area, we believe that
PennSERVE's oversight would be substantially strengthened through the use of the services of the
LECS Audit Office for pre-award assessments of amounts budgeted and financial management
systems and controls. This is now done on an after-the-fact basis. We believe that such reviews
would put controls "up-front" in the subgrantee evaluation process, and preclude potential budget
and performance problems.

Recommendation

We recommend that PennSERVE coordinate with the LECS Comptroller's Office to request that the
services currently provided by the LECS Audit Office be expanded to include pre-award assessments
of new subgrantees' budgets and financial management systems and controls.

2.     Costs questioned resulting from this audit were related exclusively to the PDAT and
Administrative grants. While there has been considerable oversight provided on the AmeriCorps
grants, these PDAT and Administrative grants tend to receive either limited or no independent
outside surveillance. As a result, we found transactions that were misclassified and other
                                              21
unallowable costs.

Recommendation

An annual independent re:view of in-house administered prograrns, such as the PDAT and
Administrative grants, would provide feedback on current recording procedures and highlight any
necessary corrective action. Although the LECS auditors may not provide an independent
examination, perhaps a peer review exchange of Commonwealth staff, or Auditor General services,
would be feasible for the purpose of examining proper grant cost compliance.
                       Follow-up On Pre-Audit Survey Findings
                             OIG Audit Report No. 00-14
                           Pre-Award Survey Report of the
                  PennSERVE: The Governor's Office of Citizen Service

The results of the Pre-Audit Survey and related Findings and Recommendations are scheduled
below:

I. Selecting Subgrantees

              There were no significant areas noted for improvement with the process used at
              PennSERVE.

11. Administering Grant Funds

              Adequacy of Staffing Levels - Sufficient staffing does not exist to perform all
              required duties in an effective manner. The current personnel appear to have
              adequate skills and the experience to manage the Corporation's grant funds and
              another management-level position was added at the beginning of calendar year
              2000. Additional increases in funding levels or subgrantees, without an additional
              increase in personnel, could result in potential control weaknesses or instances of
              material noncompliance.

              Timeliness of Receipt of Progress Reports - Prior to October 1999, PennSERVE
              did not keep track of when initial quarterly progress reports from subgrantees were
              received. PennSERVE therefore could not verify if the documents were submitted on
              time.

       Recommendations for Administering: Grant Funds

              1. Evaluate current resources and the Corporation's program requirements to
                 determine the staffing levels necessary to evaluate and monitor each subgrantee.
                 Also, PennSERVE should request additional funding, as needed, from the
                 Commonwealth of Pennsylvania's Office of Administration.

              2. Implement procedures to maintain a log in order to monitor the receipt of
                 progress reports, review the log prior to expected due dates and take necessary
                 action when reports are not received in a timely manner. PennSERVE should
                 consider sending reminder notices to subgrantees to improve the timely receipt of
                 reports.
      Current Status

             1. Since the issuance of the Pre-Audit Survey Report, PennSERVE added an
                additional staff person.

             2. PennSERVE currently tracks receipt of all progress reports from subgrantees.
                Other administrative controls have also been incorporated.

             We consider PennSERVE's actions to be fully responsive to the Pre-Audit Survey
             reported conditions.


111. Evaluating and Monitoring Subgrantees

             Documentation of Subgrantees' Financial Systems, AmeriCorps Member
             Timesheets and Expense Documentation Examined During Site
             Visits - Commission personnel do not specifically document the subgrantees'
             financial systems, AmeriCorps member timesheets or expenses examined during site
             visits. As a result, it is not possible to assess if the sample size selected was adequate
             or to review the same documentation if a question arose about the results of the test.

             Schedule of Planned and Actual Site Visit Dates - PennSERVE does not maintain
             a schedule of planned and actual dates of site visits for each program year. Without
             such documentation, PennSERVE could overlook a particular site visit or not
             perform visits in a timely manner.

             Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
             Subgrantees - PennSERVE does not have written policies and procedures to ensure
             that subgrantees correct deficiencies identified by PennSERVE. As a result,
             P ~ ~ ~ S E Rmay
                            V Enot properly or, in a timely manner, ensure the correction of noted
             subgrantee deficiencies.

             Verifying Information on Progress Reports at Site Visits - PennSERVE does not
             formally verify information on subgrantees' progress reports as part of their annual or
             detailed site visits. As a result, PennSERVE cannot determine if reported
             information is consistent with site visit observations.

      Monitoring Recommendations

             1. Develop and implement procedures to document the subgrantees' financial
                systems, member timesheets and expense items that are reviewed during site
                visits.
      2. Maintain a clear, concise schedule of site visits to be performed in the program
         year and record the dates on which site visits are actually performed. The
         schedule should be periodically reviewed to ensure its completeness and to assure
         that the visits are performed in a timely manner and in accordance with
         PennSERVE policy.

      3. Develop and implement written policies and procedures to ensure that when
         PennSERVE notes deficiencies, adequate corrective actions are taken in a timely
         manner.

      4. Establish and implement formal procedures to verify the accuracy of subgrantee
         quarterly progress reports and document the verification results. PennSERVE
         should also document the types of data requested and obtained to support the
         accuracy of the progress report.

Current Status

      1. Procedures have been implemented to specifically document these areas during
         site visits. In addition, PennSERVE utilizes the services of the LECS Audit
         Office to conduct site visits of AmeriCorps subgrantees. These reviews include
         tests of the accounting records, internal controls, verification of revenues,
         matching requirements, accruals, expenditures and other tests considered
         necessary. Both PennSERVE site visits and the LECS audits document the data
         and documents that were reviewed. PennSERVE uses its "Monitoring Tool" to
         document the systems reviewed, expenses examined and the name of each
         member is inserted at the top of each individual checklist. Based on guidance
         received from the LECS auditors, PennSERVE staff selects about 20 to 25
         percent of the total number of members for review. A "random start-fixed
         interval" statistical sampling procedure is used. The selection method is
         documented on the master monitoring tool used at each subgrantee location.

      2. A schedule of planned and actual site visits is prepared and communicated to
         subgrantees. Written policies also provide for unannounced site visits.

      3. Written policies and procedures are now included in the annual PennSERVE
         AmeriCorps Education Award Program Manual, and a PennSERVE policy
         entitled "Correction of Deficiencies Documented at Pennsylvania AmeriCorps
         State Programs." But there is a discrepancy between the two documents
         regarding the subgrantee's response time. The stated response time in the
         program manual, the document most likely to be utilized by the subgrantees,is 30
         days. The actual policy statement calls for six weeks. PennSERVE should
         resolve this difference.
               4. Site visits now include information from progress reports. Evidence from actual
                  site visits indicates the "Monitoring Tool" is being used to verify progress report
                  information. Memoranda are prepared detailing feedback regarding progress
                  reports.

               In addition to our verification of updated procedures, additional information
               concerning the current status of subgrantee monitoring is available from the
               Corporation's State Administrative Standards review performed in April 2001. This
               review concluded that PennSERVE was meeting all the standards for the sections
               entitled "Properly Monitors Programs and Ensures Compliance" and "Properly
               Monitors Member Records."

               We consider PennSERVE's actions to be fully responsive to the above conditions.

Providinp Technical Assistance:

               There were no significant areas noted for improvement within the process used at
               PennSERVE.


This report is intended for the information and use of the Office of Inspector General, as well as the
management of the Corporation, PennSERVE and its sub-recipients, and the U.S. Congress.
However, this report is a matter of public record and its distribution is not limited.



                                                      Leonard G. Birnbaum and ~ o m ~ a ; 'L
                                                                                           ~LP
                                                                                             ,



Alexandria, Virginia
March 19, 2003
                         Appendix A


Response of PennSERVE: The Governor's Office of Citizen Service
                                      July 8, 2003




Mr. J. Russell George
Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW
Suite 830
Washington, DC 20525

Dear Mr. George:

        Enclosed is PennSERVE's response to the findings and recommendations
contained in the draft report on the results of your audit of PennSERVE: The Governor's
Office of Citizen Service from January 1, 1998, through December 3 1, 200 1. We accept
the findings of the draft audit report and have taken action on the recommendations
included in the draft.

        As an update, the $103.00 in consultant overpayments has been returned to the
Corporation for National and Community Service (CNCS) as a credit to the PDAT grant.
In addition, the $4,563.14 for personnel costs related to the Pennsylvania Conservation
Corps ( K C ) has been transferred out of the Administration grant to the PCC's state
funded appropriation. These funds have also been returned to CNCS.

        As the new Executive Director of PennSERVE, I have entered the picture after the
completion of the audit; however, I do want to provide you with some of the comments of
PennSERVE's staff who were involved in the process. PennSERVE found both the
Inspector General's staff and the auditors of Leonard G. Birnbaum and Company to be
helpful, instructive and professional in their relationship with this office. We at
PennSERVE intend to follow through on the recommendations made in the draft audit.
The results of the audit will make the operation of this office even more effective and
efficient.
       If you have any questions concerning our response to the findings and
recommendations of the draft audit, please contact Peg Davis at 717-772-543 1 or
~ndavis($state.pa.us.
        -.            Thank you and your staff for assisting PennSERVE to continue to be
good stewards of public funds.

                                            Sincerely,




                                            Executive Director
                                                                 V
        PennSERVEISRESPONSE TO FINDINGS AND RECOMMENDATIONS
                   OF THE AUDIT REPORT NOMBER 03-07
                OF THE PENNSYLVANIA STATE COMMISSION


Compliance Findings

   1. The Deputy Secretary for Administration has sent a letter to the Deputy Secretary for
      Comptroller Operations for the Governor's Budget Office requesting a review of the
      Bureau of Commonwealth Payroll Operations' travel records retention policy. A copy of
      that letter is attached.

   2. PennSERVE and the Bureau of Human Resources will review all personnel assignments
      on a semi-annual basis. The salaries erroneously paid from the PDAT grant for the period
      subsequent to December 3 1,2000, have been transferred to the current Administrative
      grant. The total transferred was $43,489.58. The balance of $103,323.42 applicable to
      the previous Administrative grant awarded prior to December 3 1, 2000, has not yet been
      transferred. We have asked Doug Gerry, Grants Officer, for the Corporation for National
      and Community Service, to request officials at the Health and Human Services' Payment
      Management System to reopen this grant in the system and make funds available for
      drawdown. We are still waiting for a response from Mr. Gerry to our request. All
      salaries previously charged to the current PDAT grant have been transferred to the current
      Administrative grant.

Internal Controls Findings

   1. PennSERVE will only award planning grants for the first year to new successful
      applicants. This will allow us the opportunity to review the financial and management
      capabilities of these applicants. The LECS Audit Office will conduct a financial systems
      review during the one-year planning grant period. If it is determined during the LECS
      review that the applicant cannot meet the financial requirements and obligations of a
      federal grant, the applicant will not be awarded funding after the planning grant period.

   2. PennSERVE is working with the new Acting Comptroller of LECS to determine the
      appropriate review procedure for the purpose of examining proper grant cost compliance.
      A copy of the memo from PennSERVE to the Comptroller requesting information on the
      proper review procedure is attached.
                                         OFFICE OF THE DEPUTYSECRETARYFOR ADMMTSTRATION
                                               PADEPARTMENT   OF LABORAND INDUSTRY
                                                ROOM1700 LABOR& INDUSTRY BUILDING
                                                     SEVENTHAND FORSTERSTREETS
                                                        HARRISBURG,PA 17120
LAB(-$f&?j-jD5sTa
             717-787-8667
COMMONIEALTE O F PENNSYLVANIA
                                                           FAX:717-787-8826                 www.dli.state.pa.us

                                                 June 10,2003

Mr. Harvey C. Eckert
Deputy Secretary for Comptroller Operations
Office of the Budget
207 Finance Building
Harrisburg, PA 17120

Dear Mr. Eckert:

Recently, PennSERVE of the Department of Labor and Industry underwent an audit by the Inspector General
of the Corporation for National and Community Service. Although the audit found very few problems, there
was one compliance finding which relates to the Bureau of Commonwealth Payroll Operations.

             The finding states:

             The Bureau of Commonwealth Payroll Operations, which is the repository of all Commonwealth
             travel documents, is not retaining travel records in accordance with the Corporation's Grant
             Provision Number 26, Retention of Records, which requires that records supporting claimed costs
             be retained for three years aRer submission of the final Financial Status Report. The current
             policy is to retain such records only for the curre'nt and two preceding fiscal years.

              The condition appears to be caused by the fact that the records retention policies of the Bureau of
              Commonwealth Payroll Operations currently do not consider situations where grants may still be
              active or administratively "open" and subject to audits of supporting documentation or other
              record retention requirements.

              This condition results in a violation of the grant's tenns and conditions and might result in, or fail
              to disclose on a timely basis, potential funding misapplications. While we were able to satisfy
              ourselves on the validity of selected test items based on independent records maintained by
              PennSERVE we found that problems can occur because both the grantor and grantee lack ori@
               supporting source documentation for claimed costs on grants that have not been closed out.

  It is my understanding that all federal grants have the same or similar retention provisions. In order that no
  future audit exceptions occv please provide the Department with a Corrective Action Plan that addresses this
  issue.

  If you have any questions concerning this request or need additional information, please contact me at 787-
  8667 or johnthomas@,sta~e.~a.us.Thanks for your assistance with this important matter.

                                                 Sincerely,




  cc: William A. Hardenstine, Jr.
                                        *Ezx
                                                                                    PennSERVE
                                                                      THEGOVERNOR'S
                                                                                 OFFICEOF CITIZEN
                                                                                                SERVICE
                                                                            1306 LABOR.AND INDUSTRY BUILDING
                                                                              SEVENTH     AND FORSTER STREETS
                                                                                      HARRISBURG,PA 17120
                                                      ... . .
                                                            ... -.-          -~-...... .
                                                                                     -      ..- .- .-     -                               ---- -
                                                                                                                                         ~-~




LABOR&EDUSTIV
                                                             ~




                                                           71 7-787- 1971           Fax: 7 17-705-42 15            www.dli.state.pa.us
C O M M O N W E A L T H 01" P E N N S Y L V A N I A                                                   ~   -   .
                                                                                                              ..   -~




                                                                            July 8, 2003



Connie Huber
Acting Comptroller
Labor, Education and Community Services
Office of the Budget
Comptroller Operations
15th Floor
Labor & Industry Building
Harrisburg, Pa 17120

Dear Connie:

        The Office of Inspector General for the Corporation for National and Community Service
(CNCS) recently completed a draft report on an audit of CNCS grants awarded to PennSERVE.
The draft audit contains an internal control finding and recommendation on which I seek your
assistance.

        The finding concludes that while considerable oversight is provided on the AmeriCorps
grants, the PDAT and Administration grants tend to receive either limited or no independent
outside surveillance. A recommendation is made in the draft audit that an annual independent
review of these grants be conducted. Although your office many not prove to be the correct
agency to conduct this review, I am requesting your assistance to determine how an independent
review of these grants may be done.

       I will await your advice on this request. If you need more information, please contact Peg
Davis at 772-543 1 or mdavis@,state.pa.us. Thanks for your assistance with this matter.

                                                                                         Sincerely,



                                                                                         Karen Kaskey
                                                                                         Executive Director
                                                                                                                   u
                         Appendix B


Response of the Corporation for National and Community Service
                                     Corvoration for          rn

                                     NATIONAL &r
                                     COMMUNITY
                                     SERVICE5




To:           J. Ru ell G    ge, Inspector General

~rom                                                   Management

Date:       h-ttM5,2003
Subj:
                                  u
              Response to OIG Draft Audit Report 03-07: Incurred Cost Audit of Grants
              Awarded to PennSERVE: The Governor's Office of Citizen Service

We have reviewed the draft audit report of the grants to PennSERVE and are pleased to note the
low level of questioned costs identified by the auditors, most of which resulted from
classification errors PennSERVE has already corrected. As a result, we have disallowed only
$4,666, less than 1% of the funds granted to the state. PennSERVE has already agreed that the
charges were in error and has returned them to the Corporation.

In addition, the PennSERVE response addresses the recommendations related to compliance and
internal controls made by the auditors and the Corporation has accepted those responses. As a
result, this response to the draft audit also serves as the Corporation's Management Decision on
the audit. Within the next three months, we will follow up with the Commission to confirm that
corrective action is complete.




                            1201 New York Avenue, NW      *
                                                     Washington, DC 20525
                                                  *
                                  202-606-5000 www.nationalservice.org
                            Senior Corps   * AmeriCorps * Learn and Serve America                                    L
                                                                                           The President's Call to Servlce
